<html>
<title> - NOMINATION OF REBECCA DYE TO BE COMMISSIONER OF THE FEDERAL MARITIME COMMISSION</title>
<body><pre>[Senate Hearing 107-960]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-960



                    NOMINATION OF REBECCA DYE TO BE

            COMMISSIONER OF THE FEDERAL MARITIME COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-748              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on July 31, 2002....................................     1
Statement of Senator Breaux......................................     1

                               Witnesses

Dye, Rebecca, nominee to be Commissioner of the Federal Maritime 
  Commission.....................................................     1
    Biographical information.....................................     3

                                Appendix

Stevens, Hon. Ted, prepared statement............................     7

 
                    NOMINATION OF REBECCA DYE TO BE
                  COMMISSIONER OF THE FEDERAL MARITIME
                               COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 31, 2002

                                       U.S. Senate,
         Committee on Commerce, Science, and Transportation
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John B. Breaux, 
presiding.

           OPENING STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The hearing will please come to order.
    This morning, our first order of business is going to be a 
hearing on the nomination of Rebecca Dye to be our new 
Commissioner of the Federal Maritime Commission. We are 
delighted that she is here.
    Our friend and colleague, Senator Ted Stevens of Alaska is 
here, and unfortunately, Senator Stevens has a voice problem 
this morning. I am sure it is only temporary, but we are asking 
him to save his voice. His statement, recognizing his strong 
support for Ms. Dye and her distinguished work as a counsel for 
the House Transportation and Infrastructure Committee's 
Subcommittee on the Coast Guard and Maritime Transportation, 
will be made a part of the record.
    We want to move quickly so Ms. Dye can get back to work on 
the port security legislation and other matters that we are 
currently addressing. We are delighted to have you here, and if 
you would like to introduce any family members you have and 
present your statement to the Committee, we would be pleased to 
proceed.
    Ms. Dye.

            STATEMENT OF REBECCA DYE, NOMINEE TO BE 
        COMMISSIONER OF THE FEDERAL MARITIME COMMISSION

    Ms. Dye. Thank you very much, Senator, and thank you, 
Senator Stevens. I appreciate your coming.
    My husband David, who is a former staffer on this 
Committee, and our Caroline are with me today. They have been a 
great help to me, and I appreciate your allowing me to 
recognize them.
    Mr. Chairman and Members of the Committee, I am honored to 
appear before you today as President Bush's nominee to be a 
Commissioner of the Federal Maritime Commission. It is also a 
pleasure to appear before this Committee after having worked 
with your exceptional staff on both sides of the aisle for many 
years. After arriving in Washington from my home State of North 
Carolina in 1979, I began my Federal career as a commissioned 
officer and attorney in the Coast Guard's Office of the Chief 
Counsel. I later served as a law instructor at the Coast Guard 
Academy in New London, Connecticut.
    After 2 years as an attorney at the United States Maritime 
Administration, I joined the staff of the former Committee on 
the Merchant Marine and Fisheries in the House of 
Representatives as Minority counsel, and then in 1995, I became 
counsel for the Coast Guard Maritime Transportation 
Subcommittee of the Committee on Transportation and 
Infrastructure. I have been extremely fortunate during my 
career to have the support and encouragement of my family, good 
friends, and mentors.
    Today, I would like to publicly thank my friends and 
mentors in the industry and on Capitol Hill, including former 
Congressmen Bob Davis, Jack Fields, Bud Shuster, and especially 
the Transportation and Infrastructure Chairman, Don Young, for 
his support and guidance over the years.
    Mr. Chairman, as I am confirmed as a Commissioner of the 
Federal Maritime Commission, my 23 years of diverse experience 
in maritime law and policy will allow me to positively 
contribute to the Commission's vital mission. I am familiar 
with the specific legal authorities administered by the 
Commission, in particular the Ocean Shipping Reform Act. I am 
also familiar with the business needs and the general concerns 
of the various industry stakeholders regulated by the 
Commission.
    Finally, my experience with the legal authorities and 
regulatory regimes administered by the Coast Guard and the 
Maritime Administration has given me a broad understanding of 
maritime transportation.
    I recently heard Federal Maritime Commission Chairman Hal 
Creel make the point that few Americans appreciate the 
significant role that international ocean transportation plays 
in their lives. Even fewer Americans are aware of the 
importance of the country's international ocean shipping regime 
administered by the Federal Maritime Commission.
    The United States relies on ocean transportation for 95 
percent of cargo tonnage that moves in and out of the country. 
Each year, more than 7,500 commercial vessels make 
approximately 51,000 port calls and over 6 million loaded 
marine containers will enter U.S. ports.
    The Commission's regulation of international liner 
transportation is an important component of our Nation's 
economic vitality, and it was greatly strengthened by this 
Committee's effort in the development and enactment of the 
Ocean Shipping Reform Act of 1998. The Ocean Shipping Reform 
Act substantially amended the Shipping Act of 1984, the primary 
statute administered by the Commission. The goal of the 
amendment contained in the Ocean Shipping Reform Act was to 
encourage the free flow of U.S. exports and imports through our 
greater reliance on the marketplace. The Commission concluded 
in its recent report on the effect of the Ocean Shipping Reform 
Act on international maritime shipping that the Act is working 
well. It has been an enormous benefit to international ocean 
shipping.
    As you know, Mr. Chairman, the most significant changes 
authorized by the Ocean Shipping Reform Act involve service 
contracts between ocean carriers and shippers. Under the Reform 
Act, service contracts may be kept confidential. While the 
contracts are required to be filed with the Commission on a 
confidential basis, the contracting parties may keep important 
rate information private if they wish. Liner conferences and 
agreements among common carriers cannot dictate service 
contract terms or prohibit members from offering service 
contracts.
    This approach to service contracting allows market-based 
forces to set shipping rates, but also preserves a regulatory 
role for the Commission. It allows ocean carriers to be 
responsive to the needs of their customers, and has resulted in 
a dramatic change in the way ocean cargo is shipped 
internationally. Recent statistics show that in some trade 
lanes companies are shipping about 98 percent of their cargo 
under shipping contracts.
    If confirmed by the Senate, I will be fair-minded and 
objective in the execution of the market-oriented statutory 
directives of the Ocean Shipping Reform Act. I will also do all 
I can to guarantee that shippers, common carriers, ocean 
transportation intermediaries, and ports regulated by the 
Commission are provided with a fair market environment in which 
to operate.
    Pursuant to the Commission's other statutory authorities, I 
will work to eliminate unfair shipping practices by foreign 
governments, and protect cruise ship passengers against undue 
financial risk.
    Finally, Mr. Chairman, I will do all that I can to assist 
in a concerted effort to ensure homeland security.
    Mr. Chairman, thank you very much for holding this hearing 
today, and I will be delighted to answer any questions you may 
have.

    [The biographical information of Rebecca Dye follows:]


                      A. BIOGRAPHICAL INFORMATION

    1. Name: Rebecca Feemster Dye; Maiden name: Rebecca Lynn Feemster 
Nickname: ``Becky''.
    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of nomination: June 12, 2002.
    4. Address: (Information not released to the public).
    5. Date and place of birth: May 8, 1952, Charlotte, North Carolina.
    6. Marital status: Married. Husband's name: David Gary Dye.
    7. Names and ages of children: Caroline Lytton Dye, age 13.
    8. Education: August, 1966-June, 1970, Hunter Huss High School, 
High School diploma awarded June, 1970; September, 1970-June 1972, 
University of North Carolina at Greensboro, No degree awarded; August, 
1972-May, 1974, University of North Carolina at Chapel Hill, Bachelor 
of Arts awarded May, 1974; August, 1974-May, 1977, University of North 
Carolina School of Law, Juris Doctorate awarded May, 1977.
    9. Employment record: January 1995-Present, Counsel, Committee on 
Transportation and Infrastructure, 2165 Rayburn House Office Building, 
U.S. House of Representatives, Washington, D.C. 20515; February 1987-
January 1995, Minority Counsel, Committee on Merchant Marine and 
Fisheries, U.S. House of Representatives, Washington, D.C. 20515, 
(Committee was abolished in 1995); June 1985-February 1987, Attorney, 
Legislation Division, Office of the Chief Counsel, Maritime 
Administration of the Department of Transportation, Washington, D.C., 
1400 7th Street, S.W. Washington, D.C. 20590; August 1983-June 1985, 
Law Instructor, United States Coast Guard Academy, New London, 
Connecticut; June-August 1983, Attorney, Office of the Assistant 
Counsel for Legislation, Department of Transportation, Washington, D.C. 
20590; 1980-1983, Attorney, Legislation Division, Office of the Chief 
Counsel, United States Coast Guard Headquarters, Washington, D.C.; 
1979-1980, Assistant Division Chief, Legal Administration Division, 
Office of the Chief Counsel, United States Coast Guard Headquarters, 
Washington, D.C.; 1978-1979, Attorney Project Coordinator, Legal 
Services of North Carolina, Raleigh, North Carolina; 1977-1978, Special 
Counsel, Broughton Psychiatric Hospital, Morganton, North Carolina; 
1977, Instructor, Dyslexia School, Dallas, North Carolina; 1976-1977 
(Part-time), Sales Clerk, Belk-Leggett Co., Durham, North Carolina; 
1975-1976, (Part-time), UNC Law School Library; 1975 (Part-time) 
Instructor, Reading Research Foundation, Layfayette, LA.
    10. Government experience: None other than those listed above.
    11. Business relationships: Member of Board of Directors for Coast 
Guard Federal Credit Union (early 1980s); Member of Board of Directors 
of House of Representatives Child Care Center (early 1990s).
    12. Memberships: North Carolina State Bar; White House Military 
Social Aides Association; St. Francis Episcopal Church, Potomac, MD; 
Palisades Swim and Tennis Club, Bethesda, MD; Montgomery County 
Republican Party Association
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. $1,000--Bush for 
President.
    14. Honors and awards: Coast Guard Commendation Medal Coast Guard 
Achievement Medal.
    15. Published writings: ``Slick Work: An Analysis of the Oil 
Pollution Act of 1990,'' published in 1992 by the Journal of Energy, 
Natural Resources and Environmental Law,  Co-authored with Cynthia M 
Wilkinson and Lisa Pittman.
    16. Speeches: During the last 5 years I have been asked 
infrequently to give remarks concerning current developments in 
Congress. I speak from brief notes for these appearances, and do not 
keep copies of my notes or the dates of appearances.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I believe I received this nomination based 
upon my qualifications and experience relating to the responsibilities 
of the Federal Maritime Commission.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I believe 
my nearly 23 years of experience in matters concerning maritime law and 
policy qualify me for this position.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. In my positions 
as Counsel for the Committee on Transportation and Infrastructure and 
for the former Committee on Merchant Marine and Fisheries, I was 
employed to develop legislation to carry out the legislative agenda of 
the Members of Congress for whom I worked.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. I am unaware of any potential conflicts of interest at this 
time. If any potential conflicts arise at any time I will recuse myself 
from consideration of matters involved.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediment to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I believe my nearly 23 years of experience in positions 
directly related to maritime law and policy, including the laws 
enforced by the Federal Maritime Commission, qualify me for the 
position of Federal Maritime Commissioner.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? If confirmed, I believe that my training 
and experience has prepared me to carry out successfully the duties of 
a Federal Maritime Commissioner.
    3. Why do you wish to serve in the position for which you have been 
nominated? If confirmed, I believe that my experience and other 
qualifications will allow me to discharge successfully the 
responsibilities of the position for which I was nominated. I believe 
it is an honor to serve the President and the people of the United 
States in the position for which I have been nominated.
    4. What goals have you established for your first 2 years in this 
position, if confirmed? If confirmed, my goal will be to enforce 
faithfully the laws and other mandates of the Federal Maritime 
Commission.
    5. Who are the stakeholders in the work of this agency? The 
stakeholders of the Federal Maritime Commission include the U.S. 
Senate, the U.S. House of Representatives, the executive branch, vessel 
common carriers, shippers of cargo, shipping intermediaries, United 
States ports, and United States labor.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? If 
confirmed, the proper relationship between my position and agency 
stakeholders would be to consider all relevant viewpoints provided by 
the stakeholders on matters before the Commission, and to exercise 
independent judgment, based on the law and other mandates of the 
Commission, to address those matters.
    7. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I have employed a 
collegial, team approach to personnel management. No employee 
complaints have been brought against me.
    8. Describe your working relationship, if any, with the Congress? 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have been employed for over 15 
years in Congress, with two different Committees in the House of 
Representatives. During that time I have worked regularly with the 
Committee on Commerce, Science and Transportation and other committees 
of the Senate. My work relationships have been courteous and 
professional.
    9. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. If confirmed, l 
will fully consider all viewpoints of stakeholders, including those of 
the Members of this Committee, and ensure that I am fully informed on 
the law and the facts concerning any regulation considered by the 
Commission.
    10. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views. At this time, I do not have any personal 
legislative priorities that I believe should be considered by the 
Congress with respect to Federal Maritime Commission. Congress recently 
enacted comprehensive amendments to the international ocean shipping 
system in the Ocean Shipping Reform Act of 1998, and, if confirmed, my 
first priority will be to implement and enforce that Act and the other 
laws and mandates administered by the Commission.
    11. Please discuss your views on the appropriate relationship 
between a voting member of any independent board or commission and the 
wishes of a particular President. I believe that a member of an 
independent board or commission should consider all relevant viewpoints 
and exercise his best independent judgment, based on the law and other 
mandates of the commission, on any matter before that board or 
commission.


    Senator Breaux. Thank you very much, Ms. Dye, for your 
statement. You mentioned being concened about homeland security 
in your last sentence. Do you think the FMC has a role in 
homeland security in any way?
    Ms. Dye. Yes, Mr. Chairman. The FMC has been participating 
in the cargo container security meetings that are being held at 
the Department of Transportation. As you know, information-
sharing and integration and analysis is going to be one of the 
cornerstones of our homeland security effort. The Federal 
Maritime Commission can play a role in sharing the wealth of 
information that they collect.
    The Federal Maritime Commission licenses freight forwarders 
and non-vessel-operating common carriers, which are the 
shipping intermediaries, in some cases that actually oversee 
the loading and the sealing of containers.
    The Commission, in their licensing efforts, requires 
experience for 3 years back on these transportation 
intermediaries, and they also require a bond for them to 
perform in the United States, so that information I think would 
be very valuable in a container analysis data system.
    There are about 2,150 U.S. freight forwarders, and nearly 
3,000 non-vessel-operating carriers that are licensed presently 
by the FMC, so that would be a great advantage.
    Senator Breaux. Well, I appreciate that answer. We had a 
previous hearing on the Chairman-to-be, Mr. Blust, and Mr. 
Creel joined us as well. We talked about that information. If 
it just stays with the FMC and is not somehow shared with some 
of the law enforcement agencies, whether it is the FBI or the 
new Homeland Security Department, it is very important 
information, and should not just be pigeonholed and put in a 
box somewhere at the FMC.
    You have access to information that could be exceedingly 
valuable, and I think we should make sure we have a system 
whereby it is shared by those who need to have it shared.
    Ms. Dye. Yes, sir.
    Senator Breaux. We probably have some additional questions 
we might submit to you, but for the moment I think that will 
suffice with my questions.
    I take it that Senator Stevens, if he has questions, they 
would be submitted in writing, and we will operate under that 
format.
    Senator Rockefeller, from the great maritime State of West 
Virginia.
    Senator Rockefeller. Mr. Chairman, I was searching the map 
this morning once again looking for oceans and ports in West 
Virginia, and I failed to come up with any, so I only have to 
assume that I am going to vote for this nominee.

    [Laughter.]

    Senator Breaux. Thank you, Senator Rockefeller.
    Ms. Dye, thank you so much. I hope that soon we will be 
able to call you Commissioner Dye. We will bring it to a vote 
just as soon as the Chairman is able to schedule it. We look 
forward to working with you in the future.
    Ms. Dye. Thank you very much, Senator. I appreciate it.
    Senator Breaux. Thank you.
    [Whereupon, at 9:45 a.m., the hearing was adjourned.]

                            A P P E N D I X

                Prepared Statment of Senator Ted Stevens

    Mr. Chairman, thank you for holding this hearing to consider the 
nomination of Rebecca Dye to be a Commissioner on the Federal Maritime 
Commission (FMC).
    Ms. Dye was nominated on June 13, 2002, by the President to serve 
as an FMC commissioner for the remainder of a 5-year term expiring June 
30, 2005. Ms. Dye is fully prepared to serve as a Federal Maritime 
commissioner from her years as an officer in the U.S. Coast Guard, both 
as a legislative attorney in the Chief Counsel's Office in Coast Guard 
Headquarters and as a Law Instructor at the Coast Guard Academy in New 
London, Connecticut.
    In addition to her service to her country in the Coast Guard, Ms. 
Dye has distinguished herself as the Counsel for the House 
Transportation and Infrastructure Subcommittee on Coast Guard and 
Maritime Transportation, working for my good friend Chairman Don Young.
    Ms. Dye is an excellent choice for this position and will serve our 
Nation's maritime interests well. I strongly recommend that this 
Committee move her nomination forward.
  


</pre></body></html>
